No. 19-823
IN THE SUPREME COURT OF THE UNITED STATES

SUSAN PEARSALL - PETITIONER
VS.
THOMAS C. GUERNSEY, DDS - RESPONDENT

PROOF OF SERVICE

I, Susan M. Pearsall, do declare that on March 20, 2020,1 served three copies of the
enclosed PETITION FOR REHEARING and CERTIFICATE OF COMPLIANCE on
Thomas C. Guernsey, DDS's counsel of record, attorney Paul R. Bonfiglio, by mail
insured for delivery within three days, by depositing an envelope Containing said
documents with the United States Postal Service, with no less than first-class
postage prepaid, addressed to:
Paul R. Bonfiglio
300 Madison Avenue, Suite 1406
Toledo, Ohio 43604
PHONE (419) 242-3900
I declare under penalty of penury that the foregoing is true and correct.
Executed on March 20, 2020

'llA
Susan M. Pearsall
\

ifl ■
RECEIVED
MAR 2* 2020

Pursuant to Rule 29.5, this proof is accompanied by the following statement
together with the following list:
All parties required to be served have been served.
No party to be served is the United States or any federal department, office,
or agency, nor does this case involve any party in alleged service as a federal officer
or federal employee.
LIST OF COUNSEL
Party: Thomas C. Guernsey, DPS
Paul R. Bonfiglio
300 Madison Avenue, Suite 1406
Toledo, OH 43604
(419) 242-3900
Counsel ofRecord for Thomas C. Guernsey, DDS

End list.

Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, Ohio 45840
419-889-3564

